        U.S. Department of Energy
        Office of Inspector General
        Office of Audits and Inspections




Special Report
Lessons Learned/Best Practices
during the Department of Energy's
Implementation of the American
Recovery and Reinvestment Act of
2009




OAS-RA-12-03                     January 2012
                                  Department of Energy
                                    Washington, DC 20585
                                        January 18, 2012



MEMORANDUM FOR THE SECRETARY

FROM:                    Gregory H. Friedman
                         Inspector General
SUBJECT:                 INFORMATION: Special Report on "Lessons Learned/Best Practices
                         during the Department of Energy's Implementation of the American
                         Recovery and Reinvestment Act of 2009"

BACKGROUND

The American Recovery and Reinvestment Act of 2009 (Recovery Act) was signed into law on
February 17, 2009, as a way to jumpstart the U.S. economy, create or save millions of jobs, spur
technological advances in science and health, and invest in the Nation's energy future. As part of
the Recovery Act, the Department of Energy received more than $35 billion to support a number
of science, energy and environmental initiatives. In addition, the Department noted that its
authority to make or guarantee energy-related loans increased to as much as $52 billion. As of
December 31, 2011, the Department had obligated $34.6 billion (98 percent) of the Recovery
Act funding but had spent just over $21 billion. The goal of rapidly deploying funds of this
magnitude and ensuring that the funds were expended efficiently and effectively, created a
number of challenges for the Department. Resources were strained, the existing infrastructure
was stretched, institutional barriers had to be overcome, and new programs were established on
an expedited basis.

From an Inspector General perspective, the intensive ramp-up and execution of Recovery Act-
funded efforts provided a number of Departmental lessons learned and insights as to best
practices. This report highlights a number of such issues identified as part of our body of work
over nearly three years. This includes more than 70 completed Recovery Act reviews and many
more ongoing investigations and evaluations. Our examinations in this area involved extensive
discussions with Federal, state and local officials; contractors and grantees; funding and service
recipients; and, other individuals. These interactions proved to be invaluable in carrying out our
mission.

RESULTS

The Department, with an "all hands on deck" organizational approach, made a concerted effort to
implement and execute programs designed to meet the goals and objectives of the Recovery Act.
As might be expected in such a complex undertaking, certain actions did not initially achieve
their intended result. There were notable successes and some failures. As a consequence of our
work, we identified a number of "lessons learned" that we believe can benefit Departmental
operations now and in the future. Organized by category, these include:
Risk Management Practices. Effective management of risk depends on a rigorous system
of controls to ensure that: (a) programmatic decisions are based on the results of an
established due diligence process; (b) risks are continuously monitored and adjustments
made to projects as risks evolve; and, (c) performance metrics and trend analyses are
used to help ensure that programs are meeting their intended objectives. Our report on
Selected Department of Energy Program Efforts to Implement the American Recovery
and Reinvestment Act (OAS-RA-10-03, December 2009) noted that the Department had
taken a number of actions to mitigate risks such as these. However, in our report on The
Department of Energy's Loan Guarantee Program for Clean Energy Technologies
(DOE/IG-0849, March 2011), we reported that the Department's decision documents
summarizing the results of due diligence and risk assessment processes did not always
describe actions officials told us they took to address, mitigate and/or resolve risks. We
also noted in our management alert on Western Area Power Administration's Control and
Administration of American Recovery and Reinvestment Act Borrowing Authority (OAS-
RA-12-01, November 2011) that certain project controls necessary to help reduce the risk
associated with budget overruns and schedule slippages had not been incorporated into a
$161 million transmission infrastructure project;

Financial Management and Accounting and Reporting. The use of spending plans and
project baselines are essential to appropriately manage and account for changes to
financial resources. Additionally, validation of performance results data is necessary to
verify that actual program and project progress is consistent with information being
reported. Also, adequate coordination among involved parties to ensure that funds are
managed properly can significantly contribute to the success of projects. The Department
had taken a number of actions to address challenges related to financial management and
accounting and reporting. However, we found that additional improvements were
warranted. As an example, we noted in our report on the Department of Energy's Efforts
to Meet Accountability and Performance Reporting Objectives of the American Recovery
and Reinvestment Act (OAS-RA-09-04, September 2009) that, while it made positive and
proactive efforts to develop, refine, and apply the control structure needed to ensure
accurate, timely, and reliable reporting, the Department had not determined whether
existing information systems would be able to process increased data due to the Recovery
Act. Officials had also not ensured that Headquarters program offices coordinated their
Recovery Act reporting;

Human Capital Management. Continuous evaluation of staffing levels and employee skill
sets help ensure that they are commensurate with the demands of work being performed.
Furthermore, developing and implementing appropriate human capital planning activities
support an effective and efficient workforce, especially as Recovery Act programs wind
down. In addition, management should ensure that hiring practices are conducted in
accordance with appropriate rules and regulations to help enable a qualified and diverse
workforce. Our report on The Department of Energy's Implementation of the Energy
Efficiency and Conservation Block Grant Program under the Recovery and Reinvestment
Act: A Status Report (OAS-RA-10-16, August 2010) raised concerns related to increased
workload associated with monitoring the thousands of grant recipients and projects. During
the review, we noted that one Department field office had assigned over 200 grants to each of


                                        2
       its project officers to monitor, while another field office had only assigned approximately 10
       awards to each project officer;

       Regulatory Compliance. Anticipating and planning for the impact of regulatory
       requirements on operations can help the Department and its grant and contract recipients
       achieve the desired level of program performance. We refer specifically to such
       requirements as the Buy American Provisions and Davis-Bacon Act. Additionally,
       adequate flow-down of policies and procedures to subcontractors and sub-recipients is
       important to ensure that all operating levels are held accountable for meeting regulatory
       requirements. Further, the availability of policies and guidance at the time funds are
       awarded enables recipients to be aware of and include all relevant requirements in their
       project management practices. Our audits of the Department's use of $3.1 billion to fund
       State Energy Program grants identified states that had not established contingency plans
       for spending their Recovery Act funds in the event the projects they selected failed to
       meet regulatory requirements. For instance, as identified in our report on Management
       Controls over the Department of Energy's American Recovery and Reinvestment Act –
       Louisiana State Energy Program (OAS-RA-10-09, May 2010), Louisiana had not
       developed contingency plans to replace projects in the event that they did not receive
       timely National Environmental Policy Act approval. Effective planning is critical to
       ensuring that funds are deployed within established timeframes such as those associated
       with the April 2012 performance deadline for expending funds that was included in a
       number of grants; and,

       Delivery of Public Services. Clear communication with the public is essential to avoid
       gaps between recipient expectations of services rendered by grantees on behalf of the
       Department and those actually available under Recovery Act and non-Recovery Act
       programs. In addition, active and thorough monitoring of program activities by all
       responsible parties can help mitigate a host of performance challenges, including those
       related to quality of work and eligibility for services. Furthermore, proactive awareness
       related to the potential for fraud, combined with enhanced involvement by programs in
       addressing OIG Hotline complaints, can help identify and address programmatic issues in
       a more effective and timely manner. Since February 2009, for example, the OIG Hotline
       received over 400 complaints related to the Department's Recovery Act activities.
       Approximately 200 complaints were related to the Weatherization Assistance Program,
       many of which appeared to have resulted from gaps between homeowner expectations
       about the scope of work to be performed on their homes and the actual scope of remedial
       work authorized under the program.

Our reviews confirmed that the Department had taken a number of significant actions to carry out its
programs to meet the goals and objectives of the Recovery Act. For instance, management took
various steps to enhance its risk management practices to help ensure that programmatic risks were
identified and mitigated to the extent possible. In addition, program offices developed and
implemented practices to aid in accounting and reporting for Recovery Act activities. Furthermore,
the Department acted quickly to hire and/or reallocate staffing to administer and monitor activities
associated with the Recovery Act. Programs also had initiated many actions to deliver services to
the public, ranging from improving the energy efficiency of thousands of households to installing


                                                3
smart meters in various parts of the country to help improve the public's ability to manage electricity
usage. Many of the activities carried out by the Department were the result of proactive efforts on
the part of program offices. Yet, various other actions and program enhancements occurred in
response to issues identified during our reviews.

In our view, the Recovery Act and its implementation and execution by the Department, both the
positives and the negatives, represent an important "teachable moment" which should be used to
inform and aid in the on-going transition to a post-Recovery Act environment. Of even greater
importance, the issues raised can be utilized by all programs and sites to enhance Department
operational effectiveness going forward. To this end, additional details are provided in the body of
our report. A matrix describing and categorizing our body of Recovery Act-related work is attached
as well.

It should be noted that as of the date of this report, substantial Recovery Act funds have yet to be
spent. For this reason, our work related to Recovery Act execution – audits, inspections and
investigations – continues. Should additional "lessons learned" surface as on-going reviews evolve,
we will provide supplemental information to the Department's leadership.

Further, the Department's massive Loan Guarantee Program has been under significant scrutiny.
Aspects of the Program are under review by the Office of Inspector General, the Congress, and by a
special review group empanelled by the White House. The results of these efforts will likely provide
data relevant to the direction and operation of this and related programs.

MANAGEMENT REACTION

Management concurred with the information in the report and stated that it had made significant
progress in addressing our findings and recommendations through implementation and
completion of corrective actions. Management commented that it will continue to implement
strong business practices to facilitate timely, accurate and complete reporting of both Recovery
Act and base program activities. Management's formal comments are included in their entirety
in Appendix 2.
Attachment
cc:   Deputy Secretary
      Associate Deputy Secretary
      Under Secretary for Nuclear Security
      Acting Under Secretary of Energy
      Administrator, Western Area Power Administration
      Assistant Secretary for Electricity Delivery and Energy Reliability
      Acting Assistant Secretary for Environmental Management
      Acting Assistant Secretary for Fossil Energy
      Acting Assistant Secretary for Energy Efficiency and Renewable Energy
      Director, Office of Science
      Director, Advanced Research Projects Agency – Energy
      Acting Executive Director, Loan Programs Office
      Acting Chief Financial Officer
      Director, Office of Management
      Chief of Staff
                                                 4
SPECIAL REPORT ON LESSONS LEARNED/BEST PRACTICES
DURING THE DEPARTMENT OF ENERGY'S IMPLEMENTATION OF
THE AMERICAN RECOVERY AND REINVESTMENT ACT OF 2009


TABLE OF
CONTENTS


Recovery Act Lessons Learned/Best Practices

Background and Introduction ..........................................................................................................1

Identified Lessons Learned/Best Practices ......................................................................................3

Management Reaction and Auditor Comments .............................................................................21


Appendices

1. Office of Inspector General Reports by Program Area ...........................................................22

2. Management Comments ..........................................................................................................36
LESSONS LEARNED/BEST PRACTICES DURING THE DEPARTMENT
OF ENERGY'S IMPLEMENTATION OF THE AMERICAN RECOVERY
AND REINVESTMENT ACT OF 2009

Background and   Under the American Recovery and Reinvestment Act of 2009
Introduction     (Recovery Act), the Department of Energy (Department) was
                 appropriated more than $35 billion to fund a variety of science,
                 energy, and environmental initiatives through September 2015. In
                 addition, the Department noted that its authority to make or
                 guarantee energy-related loans increased to as much as $52 billion,
                 including the addition of up to approximately $16 billion in
                 Recovery Act authorities. In support of Recovery Act goals and
                 objectives, the Department was required to spend the funds
                 expeditiously while at the same time ensuring accountability and
                 transparency of its activities. The Department disbursed the funds
                 it received through grants, cooperative agreements, contracts, and
                 other financial instruments. The vast majority of the Recovery Act
                 funding was allocated among five major programs. In particular,
                 the Offices of:

                        Energy Efficiency and Renewable Energy (EERE) received
                        nearly $17 billion to support various programs designed to
                        improve energy efficiency, promote projects to reduce
                        fossil fuel emissions, reduce total energy use, improve
                        reliability of energy services delivery, and develop
                        alternative and renewable energy resources. For instance,
                        $5 billion was provided to support the Weatherization
                        Assistance Program. In addition, $3.2 billion was allocated
                        to the Energy Efficiency and Conservation Block Grant
                        (EECBG) Program and $3.1 billion was appropriated to the
                        State Energy Program;

                        Environmental Management (EM) received approximately
                        $6 billion to clean up environmental contamination
                        resulting from Cold War manufacturing activities at 17
                        sites across the Department. The Department utilized many
                        contractors already on site to help accelerate cleanup
                        activities that had already been planned;

                        Electricity Delivery and Energy Reliability (OE) was
                        provided approximately $4.5 billion to support
                        modernization of the Nation's electric grid to enhance
                        overall reliability. The funds were primarily awarded as
                        cooperative agreements to support demonstration projects
                        at various entities and grant recipients as part of the Smart
                        Grid Investment Grant Program;




Page 1                                               Background and Introduction
                Fossil Energy received $3.4 billion to stimulate private
                sector investment to accelerate the deployment of Carbon
                Capture and Storage technologies for coal-based energy
                systems and industrial processes; and,

                Science was provided $1.6 billion to further enhance
                ongoing research efforts. The funds were used to support
                various ongoing research and development activities and
                the addition of Energy Frontier Research Centers.

         In addition to the five major programs noted above, several other
         Department programs were created and/or significantly enhanced
         under the Recovery Act. Specifically:

                The Advanced Research Projects Agency – Energy
                (ARPA-E), an agency within the Department, received
                approximately $400 million under the Recovery Act to
                support high-risk, high-payoff research related to areas
                such as advanced battery technology, exploration of
                alternative fuels, and improving building technologies;

                The Loan Guarantee Program was provided with authority
                under the Recovery Act to make or guarantee additional
                loans of up to approximately $16 billion, bringing the total
                to as much as $52 billion. Activities under this program
                were designed to spur commercial investments in clean
                energy projects that use innovative technologies.
                Investments required extensive due diligence to examine
                the viability and legitimacy of potential projects and project
                borrowers, fully identify technical and financial risks, and
                evaluate and propose risk mitigation strategies; and,

                The Western Area Power Administration (Western) was
                granted $3.25 billion in borrowing authority to help build
                transmission infrastructure.

         Shortly after the Recovery Act was signed into law, the Office of
         Inspector General (OIG) issued its Special Report on The
         American Recovery and Reinvestment Act at the Department of
         Energy (OAS-RA-09-01, March 2009) that highlighted a number
         of challenges the Department would need to address to effectively
         manage the unprecedented levels of funding and meet the goals of
         the Recovery Act. In addition, the report outlined the OIG's
         planned approach for providing required oversight consistent with
         accountability objectives. In particular, we adopted a risk-based


Page 2                                       Background and Introduction
                           strategy that included, among other things, early evaluations of
                           internal controls, transaction testing of costs reported by recipients,
                           assessments of performance outcomes, and enhanced responses to
                           hotline complaints.

                           To date, we have completed and/or initiated almost 120 reviews
                           and over 100 investigations to examine the circumstances
                           surrounding the management and/or use of Recovery Act funds.
                           This body of work highlighted a number of challenges and
                           mitigating actions common to many of the Department's major
                           program offices. Based on our efforts, we developed this report to
                           provide "lessons learned" that the Department should consider not
                           only while completing Recovery Act activities, but also during the
                           implementation of future initiatives.

Identified Lessons     The unprecedented funding levels provided to the Department by
Learned/Best Practices the Recovery Act highlighted new and existing challenges in a
                       number of areas. In response, the Department had taken many
                       actions designed to help ensure that the goals of the Recovery Act
                       were met. For instance, the Department completed a
                       comprehensive strategy to mitigate risk; developed guidance for
                       financial assistance agreements; improved information technology
                       systems for tracking financial information and project
                       performance; and, increased its workforce or redirected personnel
                       to improve monitoring of financial assistance agreements.

                           Since the inception of the Recovery Act, the OIG has worked
                           closely with Department officials to address challenges related to
                           areas such as staffing; development and implementation of policies
                           and procedures to address regulatory requirements; financial
                           management and accounting and reporting; performance
                           measurement; and, quality of work completed. As noted
                           throughout this report, the Department had taken many actions
                           designed to ensure that it met the goals and objectives of the
                           Recovery Act. In addition, the OIG's body of work resulted in a
                           number of suggestions and recommendations specific to individual
                           projects, programs, or other Recovery Act activities. This report
                           identifies various "lessons learned" and offers additional
                           suggestions that should be considered by all programs as the
                           Department transitions to a post-Recovery Act environment. A
                           matrix describing and categorizing our body of Recovery Act-
                           related work is included in Appendix 1.




Page 3                                          Identified Lessons Learned/Best Practices
                                 Risk Management

         In light of the Recovery Act's impact on the Department's ongoing
         operations, it became essential for management to adequately
         assess and address new risks to its programs. Therefore, each of
         the programs that received Recovery Act funds implemented a risk
         management process prior to awarding funds. As noted in our
         report on Selected Department of Energy Program Efforts to
         Implement the American Recovery and Reinvestment Act (OAS-
         RA-10-03, December 2009), the Department had identified risks
         and planned mitigation strategies related to the award and
         distribution of funds, monitoring, and project execution that, if
         successfully implemented and executed, should have helped
         achieve the goals and objectives of the Recovery Act.
         Additionally, the Office of Procurement and Assistance
         Management developed guidance on funding acquisition and
         financial assistance activities with Recovery Act appropriations to
         help minimize risk impacts and maximize the effectiveness of
         managing those funds.

         Our reviews confirmed that the Department had taken significant
         actions to implement effective risk management practices. Our
         evaluations, however, identified a number of practices that the
         Department should consider implementing to enhance its everyday
         work processes, especially as it evaluates programmatic risks
         during the transition to non-Recovery Act activities. Based on our
         reviews of the Department's efforts, we determined that
         opportunities existed to help it manage risks in the future, and
         included the need to:

                Ensure that programmatic decisions are based on the results
                of an established due diligence process that considers and
                follows up on identified risks;

                Continuously monitor the risk environment and consider
                the impacts of changes to the risk profile as they evolve;
                and,

                Implement control measures such as performance metrics
                and trend analyses to ensure that programs and/or projects
                are on track and meeting intended objectives.

         These best practice recommendations were derived as a direct
         outgrowth of our many reviews and investigative efforts.
         Specifically, during our reviews of Recovery Act programs, the




Page 4                       Identified Lessons Learned/Best Practices
         OIG identified various internal control weaknesses that impacted
         the Department's ability to effectively manage risk. In particular:

                Officials supporting the Loan Guarantee Program had not
                sufficiently demonstrated, through detailed records, how
                risks identified during due diligence were resolved or
                mitigated prior to approving loans. During our recent
                review of The Department of Energy's Loan Guarantee
                Program for Clean Energy Technologies, (IG-0849, March
                2011) we found that program decisions were based on
                informal deliberations and professional experience rather
                than a documented risk-based methodology. Subsequent to
                our review, the White House announced that it would
                initiate an independent analysis of the Department's loan
                guarantee portfolio;

                Several of our State Energy Program reviews highlighted
                the fact that procedures were either not in place or were not
                adequate to monitor the risk environment – especially the
                risk that funded projects would not achieve Recovery Act
                goals. Our report on The Department of Energy's American
                Recovery and Reinvestment Act – Massachusetts State
                Energy Program (OAS-RA-11-06, March 2011), for
                example, identified that accomplishment of State Energy
                Program Recovery Act goals could have been hindered by
                the State's incomplete plans for monitoring grant activities,
                including the lack of plans for site visits to sub-recipients
                and the selection methodology for site visits to second-level
                sub-recipients;

                A number of our reviews determined that certain control
                mechanisms were not in place to address the risk that
                projects would not be completed in a timely manner and
                meet their intended objectives. For instance, our report on
                The Advanced Research Projects Agency – Energy (OAS-
                RA-11-11, August 2011) found that controls were not in
                place to ensure that the program was meeting technology
                transfer and outreach requirements. In addition, we noted
                that, in some cases, policies and procedures related to key
                areas such as monitoring and oversight, termination of
                awards, technology transfer and outreach, and invoice
                review had not been developed and/or approved. In
                addition, our management alert on Western Area Power
                Administration's Control and Administration of American
                Recovery and Reinvestment Act Borrowing Authority,
                (OAS-RA-12-01, November 2011) noted that certain


Page 5                        Identified Lessons Learned/Best Practices
                project controls necessary to help reduce the risk associated
                with budget overruns and schedule slippages had not been
                incorporated into a $161 million transmission infrastructure
                project. In addition, the Department indicated that Western
                had initiated a root cause analysis to guide corrective
                actions related to the project reviewed;

                Our report on the Department of Energy's Efforts to Meet
                Accountability and Performance Reporting Objectives of
                the American Recovery and Reinvestment Act (OAS-RA-
                09-04, September 2009) identified that a significant number
                of the performance metrics developed to measure progress
                for Recovery Act activities were not quantifiable. As a
                result, the ability of the Department, Office of Management
                and Budget, and the public to gauge progress in achieving
                Recovery Act goals may have been limited; and,

                During numerous reviews of recipients under the
                Weatherization Assistance Program, including the States of
                Illinois, Missouri, Tennessee, and West Virginia, we
                determined that processes had not been developed or
                implemented to analyze performance results and identify
                systemic issues related to performance. In a number of
                cases, this may have contributed to issues with the
                effectiveness of weatherization programs and increased risk
                of health and safety impacts on recipients of services.

         To address risk management issues we identified, the Department
         implemented a number of actions. For example:

                In response to our review of the Loan Guarantee Program,
                management stated that it planned to improve its records
                management system and review policies and procedures for
                supporting the results of due diligence activities;

                State Energy Program officials developed and issued sub-
                recipient monitoring guidance to the states. Additionally,
                in response to our review, Department management stated
                that it would verify that State of Massachusetts officials
                have monitoring methodologies in place and would validate
                its monitoring model;

                The ARPA-E program addressed our concerns by
                developing and finalizing policies and procedures and
                tracking technology transfer and outreach expenditures.



Page 6                       Identified Lessons Learned/Best Practices
                For example, officials required recipients to track and
                report their expenditures on technology transfer and

                outreach, a provision of the America COMPETES Act, in
                the five funding opportunity announcements issued in April
                2011;

                Officials from the Office of the Chief Financial Officer
                (OCFO) reported that they had modified the performance
                measure information system to include all required
                documentation for tracking performance metrics and results
                related to Recovery Act programs and would pursue
                additional mechanisms for tracking performance results;
                and,

                The Department noted that it intended to work closely with
                several of the Weatherization Assistance Program grantees
                we reviewed to create tracking systems that would enhance
                identification of systemic issues related to quality of work.
                It also noted that it would focus attention on grantee
                monitoring of sub-grantees to meet minimum requirements.

         We believe that many of the actions taken by the Department to
         correct cited control deficiencies, leveraged with the body of work
         completed by the OIG, can be utilized to make future risk
         management activities more effective and efficient.

               Financial Management and Accounting and Reporting

         The Recovery Act presented a number of challenges related to
         ensuring that the Department implemented effective financial
         management and accounting and reporting practices. In response,
         programs implemented various measures intended to ensure
         accountability and transparency over spending – featured or
         prominent goals of the Recovery Act. For instance, the
         Department's Recovery Act Team coordinated efforts across the
         complex and implemented weekly meetings and reviews to
         regularly monitor progress in obligating funds. Officials also
         developed a series of standardized financial and project reports to
         provide a single source of what they believed to be transparent and
         consistent financial information. Additionally, the Department and
         its recipients had taken actions to ensure that funds provided by the
         Recovery Act were segregated from regular appropriations.
         Specifically, we noted that many of the Department's management
         and operating contractors updated information in existing




Page 7                        Identified Lessons Learned/Best Practices
         accounting systems to permit the segregation of Recovery Act
         funds.

         Positive and proactive efforts were initiated to develop, refine, and
         apply the control structure needed to ensure accurate, timely and
         reliable reporting. Through our work, however, we identified a
         number of possible processes or procedural improvements. These
         actions should be considered best practices or "lessons learned" –
         actions that the Department can utilize to help ensure the
         effectiveness of its financial management and accounting and
         reporting practices. For instance, the Department should ensure
         that:

                Planning activities are adequate to effectively manage and
                account for changes to financial resources, including
                consideration of spending plans and project baselines;

                Validation of performance results data is conducted to
                verify that progress of programs and projects, such as those
                funded by the Recovery Act, is consistent with information
                being reported; and,

                Coordination occurs between all involved parties to
                contribute to the success of projects, including working
                with one another to ensure that funds are managed
                appropriately.

         These suggestions are the result of our evaluations related to
         Recovery Act financial management and accounting and reporting.
         During the course of our reviews, we identified various concerns
         that impacted the Department's ability to ensure that management
         of funds was effective and that appropriate accounting and
         reporting for Recovery Act activities had taken place. For
         instance:

                We identified problems related to the Department's ability
                to expend funds in a timely manner. In particular, our
                report on The Department of Energy's State Energy
                Program Formula Grants Awarded under the American
                Recovery and Reinvestment Act (OAS-RA-10-17,
                September 2010) found that even though the Department
                granted authority to expend funds as early as May 2009,
                actual spending at the state level had been slow. We noted
                that for the 10 states with the largest State Energy Program
                grants, 74 percent of Recovery Act funds had been
                obligated, but only about 7 percent had been spent as of


Page 8                        Identified Lessons Learned/Best Practices
         July 2010. As of September 30, 2011, the Department
         reported that it had spent 57 percent of funds obligated to
         the State Energy Program;

         Similarly, our report on The Department of Energy's
         Implementation of the Energy Efficiency and Conservation
         Block Grant Program under the American Recovery and
         Reinvestment Act: A Status Report (OAS-RA-10-16,
         August 2010) found that program spending had not kept
         pace with anticipated expenditures. In particular, as of
         August 2010, recipients had expended only about eight
         percent of the funds authorized. As of September 30, 2011,
         we noted that 52 percent of authorized funds had been
         spent, a spending pace that could jeopardize the
         Department's goal of expending the majority of the
         program's funds by September 30, 2012;

         The OIG conducted a number of investigations involving
         improper payment of per diem by a contractor at the
         Savannah River Site, many of which involved Recovery
         Act funds. The investigations were related to individuals
         receiving per diem payments they were not entitled to
         receive. Our investigations in this area resulted in civil
         settlements with contractors that failed to enforce internal
         controls over financial management, which would have
         presumably prevented the fraudulent activities. To date,
         contractor employees and the contractors have paid in
         excess of $1 million in fines, restitution, and settlement
         agreements related to Recovery Act per diem
         investigations;

         We also identified several instances where the Department
         had not adequately validated data reported by recipients.
         For example, our review of Accounting and Reporting for
         the American Recovery and Reinvestment Act by the
         Department of Energy's Funding Recipients (OAS-RA-10-
         06, April 2010) found that information reported to
         FederalReporting.gov was not always validated to ensure
         that results reported were aligned with actual
         accomplishments. In addition, as identified in our recent
         management alert on The Status of Energy Efficiency and
         Conservation Block Grant Recipients' Obligations (OAS-
         RA-11-16, September 2011), data in EERE's Performance
         and Accountability for Grants in Energy System – an
         information system used to maintain official records related
         to EECBG – was neither complete nor accurate. Such


Page 9                Identified Lessons Learned/Best Practices
                 inaccuracies could impact the application's usefulness as a
                 management tool and lead officials to erroneous
                 conclusions regarding recipient activities or progress in
                 expending grant funds; and,

                 In our report on the Department of Energy's Efforts to Meet
                 Accountability and Performance Reporting Objectives of
                 the American Recovery and Reinvestment Act (OAS-RA-
                 09-04, September 2009), we noted that the Department had
                 not determined whether existing information systems
                 would be able to process anticipated transaction increases,
                 tested and verified modifications to the performance
                 management system, or ensured that Headquarters program
                 offices coordinated their Recovery Act reporting.

          The Department had taken a number of actions to address
          challenges identified during our reviews related to financial
          management and accounting and reporting. In particular:

                 EERE management stated that it had undertaken several
                 proactive strategies to accelerate State Energy Program
                 project implementation, including the development of an
                 on-line management tool to forecast monthly expenditures
                 and provision of a variety of technical assistance measures
                 including program guidance, financing program support,
                 training opportunities, and best practice recommendations;

                 The Department indicated that it would place more
                 emphasis on verifying and improving the quality of
                 obligations data. This effort was to include a thorough
                 analysis of historical obligations data to identify and correct
                 any mistakes that may exist beyond the errors discovered
                 by the OIG. Additionally, the Department planned to
                 improve the data entry interface to help prevent future
                 errors;

                 Action was also taken to enhance the Department's ability
                 to ensure that reported performance results were accurate.
                 For instance, OCFO officials commented that they made
                 enhancements to the quality assurance process to increase
                 the likelihood that material omissions and significant
                 reporting errors would be detected; and,

                 The OCFO commented that it would conduct additional
                 capacity testing on its information systems to determine



Page 10                        Identified Lessons Learned/Best Practices
                 whether they were capable of handling large amounts of
                 recipient data.

          The actions noted above are valuable practices that the Department
          can utilize as it continues Recovery Act activities and transitions to
          non-Recovery Act work. For instance, in light of guidance from
          the Office of Management and Budget related to accelerating
          spending of remaining Recovery Act funds, it is essential that the
          Department take advantage of "lessons learned" to ensure that the
          remaining funds are distributed expeditiously and spent
          responsibly.

                              Human Capital Management

          Significant strains were placed on the Department's workforce as a
          result of the Recovery Act's unprecedented increase in funding for
          a number of programs, some of which had not previously received
          funds through normal appropriations. Notably, the Department
          acted quickly to hire individuals to administer, monitor, and
          oversee the activities resulting from the Recovery Act. For
          example, to meet the need for increasing the number and frequency
          of monitoring visits for each state from every three years to
          annually, EERE increased the number of State Energy Program
          project officers from 7 to 20 and Weatherization Assistance
          Program project officers from 6 to 24. In addition, EERE initially
          added 27 individuals to support the EECBG Program, which had
          not been previously staffed because it had not received funding
          prior to the Recovery Act. Furthermore, EERE established a
          Memorandum of Agreement with several Department sites,
          including the Oak Ridge Office and the Office of Civilian
          Radioactive Waste Management (now disbanded), to help monitor
          performance of the EECBG Program. Other Department program
          offices, most notably EM and Science, realigned and/or augmented
          staff to negotiate, execute, administer and oversee contract and
          grant awards.

          The Department's efforts to quickly increase its staff resources to
          meet Recovery Act demands were admirable. Yet, we identified a
          number of valuable lessons that the Department can utilize in the
          future to enhance its ability to manage human capital resources.
          Specifically, there is a need to:

                 Continuously evaluate staffing levels and employee skill
                 sets to ensure they are commensurate with the level of work
                 being performed by the programs;




Page 11                        Identified Lessons Learned/Best Practices
                 Develop and implement appropriate human capital
                 planning activities to support an effective and efficient
                 workforce, especially as Recovery Act programs are
                 terminated; and,

                 Ensure that hiring practices are conducted in accordance
                 with appropriate rules and regulations to help enable a
                 qualified and diverse workforce.

          The OIG noted a number of concerns during our reviews that may
          have impacted the Department's ability to meet challenges related
          to staffing while still supporting human capital objectives and the
          goals of the Recovery Act. In particular, several reviews identified
          issues related to the number and skill set of staff across various
          programs. For instance:

                 Our Special Report on The Department of Energy's
                 Acquisition Workforce and its Impact on Implementation of
                 the American Recovery and Reinvestment Act of 2009 (IG-
                 RA-09-02, March 2009) concluded that an experienced
                 acquisition workforce was essential for the effective
                 execution and performance of the Department's core
                 missions;

                 We noted ongoing inconsistencies between the
                 Department's sites related to the number of staff assigned to
                 manage EECBG awards. Our report on The Department of
                 Energy's Implementation of the Energy Efficiency and
                 Conservation Block Grant Program under the Recovery
                 and Reinvestment Act: A Status Report (OAS-RA-10-16,
                 August 2010) raised concerns related to increased workload
                 associated with monitoring the thousands of grant
                 recipients and projects. During the review, we determined
                 that the Oak Ridge Office had assigned over 200 grants to
                 each of its project officers, while the Golden Field Office
                 had only given each project officer about 10 awards to
                 monitor; and,

                 Our Review of Allegations Regarding Hiring and
                 Contracting in the Office of Energy Efficiency and
                 Renewable Energy (OAS-SR-10-04, September 2010)
                 identified certain troubling actions related to EERE's hiring
                 process. For example, we concluded that a contractor
                 employee was pre-selected for a Federal position. We also
                 noted that Federal program officials inappropriately
                 participated in support service contractor hiring decisions.


Page 12                        Identified Lessons Learned/Best Practices
          In response to the challenges it encountered and specific
          recommendations we made related to staffing issues, the
          Department had taken a number of actions designed to help ensure
          that the size and skill set of its workforce was appropriate to
          effectively manage the significant increase in workload due to the
          Recovery Act. For example:

                 As a result of our review, EERE re-distributed
                 responsibility for monitoring grants to additional project
                 officers to alleviate the increased workload. By doing so,
                 officials should be able to better monitor the EECBG
                 Program through more in-depth reviews; and,

                 The Department issued reminders to programs designed to
                 help ensure that appropriate policies and procedures were
                 followed when hiring and conducting contracting activities.

          The actions taken by the Department, combined with effective
          implementation of steps to address the issues identified during our
          reviews, can be utilized to enhance human capital processes and
          make future program activities more effective.

                                Regulatory Compliance

          The ability of the Department to ensure that various regulatory
          requirements were incorporated into program and project
          execution activities was an essential component of meeting the
          goals of the Recovery Act. In particular, the Recovery Act
          introduced the application of several regulatory requirements and
          highlighted the need to implement others such as the Davis-Bacon
          Act and Buy American provisions. Of particular note, many of the
          programs reviewed had taken actions to ensure that regulatory
          requirements were incorporated into contracts and financial
          assistance awards. For example, our Audit of Fermi National
          Accelerator Laboratory's NOvA Project (OAS-RA-L-10-02, April
          2010) determined that the Department identified special terms and
          conditions related to the Recovery Act in each of the contracts and
          awards supporting the project. During our review of The
          Department of Energy's State Energy Program Formula Grants
          Awarded under the American Recovery and Reinvestment Act
          (OAS-RA-10-17, September 2010), we found that the Department
          provided draft National Environmental Policy Act (NEPA)
          guidance to help states understand the Department's environmental
          review process and provided information to assist in that review.




Page 13                        Identified Lessons Learned/Best Practices
          The activities completed by the Department, coupled with issues
          identified by the OIG, highlighted a number of "lessons learned"
          that the Department can utilize going forward to help provide
          assurance that its programs meet the intent of regulatory
          requirements. In particular:

                 Anticipating and planning for the impact on operations of
                 meeting regulatory requirements can help the Department
                 and its recipients better achieve the desired effect of the
                 requirements, such as those included in the Buy American
                 provisions and Davis-Bacon Act;

                 The flow-down of policies and procedures to sub-
                 contractors and sub-recipients is needed to ensure that all
                 levels are held accountable for meeting regulatory
                 requirements; and,

                 Ensuring that policies and guidance are available at the
                 time funds are awarded is essential to enabling recipients to
                 be aware of and include all relevant requirements in their
                 project management practices.

          Although the Department had taken certain actions, we identified
          concerns during our reviews and made suggestions for
          improvements designed to enhance the Department's ability to
          ensure that regulatory requirements, including Federal
          procurement regulations, were consistently implemented. For
          instance:

                 Several of our evaluations found that prime recipients,
                 including certain states, had not always incorporated
                 regulatory requirements into their monitoring processes.
                 For example, our review of Management Controls over the
                 Department of Energy's American Recovery and
                 Reinvestment Act – Michigan State Energy Program (OAS-
                 RA-10-18, September 2010) noted that the existing
                 procedures for invoice reviews used by grant managers in
                 evaluating sub-recipient expenditures did not specifically
                 address verification of compliance with State Energy
                 Program Recovery Act requirements such as Buy American
                 provisions and Davis-Bacon Act wage requirements;

                 Our report on The Department of Energy's Geothermal
                 Technologies Program under the American Recovery and
                 Reinvestment Act (OAS-RA-11-05, March 2011) identified
                 that many contractors were unable to document that


Page 14                       Identified Lessons Learned/Best Practices
          employees were paid wage rates in accordance with the
          Davis-Bacon Act. Similarly, our report on the Department
          of Energy's Weatherization Assistance Program under the
          American Recovery and Reinvestment Act in the State of
          West Virginia (OAS-RA-11-09, June 2011) pointed out that
          West Virginia entered into agreements for consulting
          services that had limited or no defined duties or
          deliverables. Additionally, West Virginia did not have
          adequate documentation to support reimbursements made
          for consulting services. Furthermore, as noted in our report
          on The State of Nevada's Implementation of the Energy
          Efficiency and Conservation Block Grant Program (OAS-
          RA-12-02, November 2011), monitoring activities had not
          ensured that Recovery Act requirements such as the Davis-
          Bacon Act and the Buy American provisions had been
          properly implemented;

          State Energy Program officials had not ensured that
          contingency plans were in place to address projects that
          could not take place because they were unable to meet
          regulatory requirements. As identified in our report on
          Management Controls over the Department of Energy's
          American Recovery and Reinvestment Act – Louisiana
          State Energy Program (OAS-RA-10-09, May 2010),
          Louisiana officials had not developed contingency plans to
          replace projects in the event they did not receive timely
          NEPA approval. Effective planning such as this would
          help to ensure the expenditure of Recovery Act funds prior
          to the April 2012 performance deadline; and,

          Due to the Recovery Act's requirement to provide
          unprecedented transparency and accountability for the
          types of recipients receiving funds and the nature of
          projects funded, it became essential that the Department
          provide effective oversight and monitoring of grant
          activities. However, we noted that many programs
          reviewed had not met these requirements for oversight. For
          instance, a majority of our reviews related to the State
          Energy Program identified weaknesses in this area and
          recommended that the Department increase monitoring of
          state-level activities. Similarly, our reviews of the
          Weatherization Assistance Program found that monitoring
          requirements were not met by various states, including
          Pennsylvania, Virginia, and Illinois.




Page 15                Identified Lessons Learned/Best Practices
          The Department had taken various actions to address issues
          identified during our reviews and to help ensure that regulatory
          requirements were appropriately considered during its Recovery
          Act operations. For example, in response to the issues identified
          by the OIG:

                 EERE updated and implemented a robust monitoring plan
                 for its State Energy, Weatherization Assistance, and
                 EECBG Programs that included regular site visits. EERE
                 also issued sub-recipient monitoring guidance. As a result
                 of our review, Michigan State Energy Program officials
                 corrected the deficiencies we identified related to the
                 Davis-Bacon Act and Buy American provisions and refined
                 or developed internal controls necessary to address
                 weaknesses in monitoring;

                 The Department terminated a three-year EECBG of
                 approximately $1.1 million to a local government based, in
                 part, on information developed during an OIG investigation
                 that identified areas of unsupported costs, conflicts of
                 interest, inaccurate reporting, and activities not approved
                 for funding;

                 In carrying out an extensive hiring process, Nevada
                 officials hired an additional staff member whose sole
                 responsibility was to review and oversee sub-recipients'
                 compliance with the Recovery Act and the Department's
                 flow-down provisions;

                 Officials from EERE's Geothermal Technologies Program
                 committed to developing procedures to review compliance
                 with Davis-Bacon Act requirements, providing recipient
                 training on laws and regulations applicable to awards, and
                 monitoring recipient flow-down of requirements in
                 subcontracts and direct compliance, when required; and,

                 State Energy Program officials dedicated additional
                 resources to meet NEPA requirements and continued
                 monitoring efforts to ensure that states developed
                 contingency plans to address projects that did not receive
                 timely NEPA approval.

          Our evaluations and the actions taken by management provided
          various lessons that the Department should consider as it
          transitions to non-Recovery Act activities. Many of the actions
          already taken by the Department, leveraged with suggested actions


Page 16                       Identified Lessons Learned/Best Practices
          resulting from the OIG's body of work, can be utilized going
          forward to ensure that the goals and objectives of regulatory
          requirements are met.

                              Delivery of Public Services

          The Recovery Act presented a renewed focus on the Department's
          responsibility for ensuring that the public received benefits
          envisioned by programs. For example, the Department was
          responsible for ensuring that programs funded by the Recovery Act
          were managed effectively and that the services rendered provided
          the maximum benefit while mitigating the risk of fraud, waste, and
          abuse. Implementation of the Recovery Act also highlighted the
          increased expectations from the public of the services offered by
          the Department, particularly in areas such as the Weatherization
          Assistance Program. The Department took a number of actions to
          ensure that timely services were provided while mitigating risks.
          For example:

                 State Energy Program officials had taken action to ensure
                 that activities provided various benefits to the public. For
                 instance, the program reported that savings of $7.23 from
                 reduced energy bills were expected to be realized for every
                 dollar of Federal investment;

                 OE reported that it made significant strides in enhancing
                 the Nation's electric grid. For instance, the program
                 reported that its recipients had installed nearly eight million
                 smart meters using Recovery Act funds. In addition,
                 recipients were able to make other improvements to
                 existing infrastructure. Smart Grid projects such as these
                 are designed to modernize the electric grid infrastructure
                 and, in many cases, help the public better manage
                 electricity usage; and,

                 More than 15,000 Federal, state, contractor, and other
                 personnel participated in 297 fraud awareness briefings
                 provided by the OIG after the Recovery Act was
                 established. These briefings were provided to individuals
                 as early in the process as possible and were designed to
                 raise awareness of potential indicators of fraud, resulting in
                 enhanced oversight of program activities.

          The Department's implementation of Recovery Act programs had
          many demonstrated benefits. However, based on our evaluations,
          we believe that additional action can help ensure that the


Page 17                        Identified Lessons Learned/Best Practices
          Department effectively and efficiently delivers services to the
          public. Specifically:

                 Clear communication with the public is essential to avoid
                 the gap between recipient expectations of services rendered
                 by the Department and those actually available under
                 Recovery Act and non-Recovery Act programs;

                 Active and thorough monitoring of program activities by all
                 responsible parties can help mitigate a host of performance
                 challenges, including those related to quality of work and
                 eligibility for services; and,

                 Proactive awareness related to the potential for fraud,
                 combined with enhanced involvement by programs in
                 addressing OIG Hotline complaints, can help identify and
                 address programmatic issues in a more effective and timely
                 manner.

          The OIG identified a number of significant concerns that may have
          impacted the Department's ability to effectively provide services to
          the public while also meeting the objectives and goals of the
          Recovery Act. In particular, we found many issues related to
          implementation of certain programs designed to directly benefit the
          public. For instance:

                 Since February 2009, the OIG Hotline received more than
                 400 complaints related to the Department's Recovery Act
                 activities. Almost 200 of these complaints were related to
                 the Weatherization Assistance Program, many of which
                 involved individual homeowners. Numerous complaints
                 alleged that homeowners did not receive the weatherization
                 services they were promised before work began at their
                 homes. In addition, various allegations surrounded the
                 timeliness of weatherization services. We also noted a
                 significant number of complaints alleging that
                 Weatherization Assistance Program providers delivered
                 substandard services related to improving the energy
                 efficiency of households. In addition, the OIG received
                 various other complaints related to energy rebates, the
                 EECBG Program, and adherence to regulatory
                 requirements. As appropriate, the complaints were
                 incorporated into our reviews or referred to program
                 management for action;




Page 18                        Identified Lessons Learned/Best Practices
          Our Management Alert on the Department's Monitoring of
          the Weatherization Assistance Program in the State of
          Illinois (OAS-RA-10-02, December 2009) identified that
          adequate inspections of weatherization improvements had
          not occurred by local agency inspectors. As a result, we
          found that a contractor inappropriately installed a furnace
          without ensuring that there were no gas leaks, a situation
          that created a potential safety hazard. Furthermore, we
          noted that service providers in five states did not conduct
          sufficient final inspections of households to ensure that
          work was adequately completed. Our review of The
          Department of Energy's Weatherization Assistance
          Program under the American Recovery and Reinvestment
          Act in the State of Missouri (OAS-RA-11-12, August 2011)
          noted that inspections were not adequately conducted,
          limiting the ability of local officials to identify poor quality
          of work related to weatherization improvements; and,

          We also identified issues related to the eligibility of
          homeowners to receive weatherization services. In
          particular, we noted that local agency providers in several
          states did not always follow criteria for determining which
          clients qualified for services. As a result, homeowners
          received benefits from the program even though they were
          not eligible. For example, our report on The Department of
          Energy's Weatherization Assistance Program under the
          American Recovery and Reinvestment Act in the State of
          West Virginia (OAS-RA-11-09, June 2011) found that a
          local agency provider allowed employees and relatives to
          receive priority over the disabled and elderly. In addition,
          our review of The Department of Energy's Weatherization
          Assistance Program Funded under the American Recovery
          and Reinvestment Act for the State of Wisconsin (OAS-RA-
          11-07, May 2011) identified that local agency providers
          failed to retain source documentation that would enable
          verification of applicant eligibility for weatherization
          program services. Furthermore, we noted in our report on
          The Department of Energy's Weatherization Assistance
          Program Funded under the American Recovery and
          Reinvestment Act for the Commonwealth of Virginia (OAS-
          RA-11-14, August 2011) that local agencies provided
          weatherization services to a number of ineligible
          applicants, including those that exceeded the allowable
          maximum income.




Page 19                 Identified Lessons Learned/Best Practices
                    As a result of our reviews, the Department had taken a number of
                    actions to address challenges related to ensuring that appropriate
                    services were delivered to the public, especially in light of the
                    goals and objectives of the Recovery Act. For example:

                           The OIG referred many hotline complaints to the
                           responsible program office for action, as appropriate. For
                           instance, more than 85 complaints involving the
                           Weatherization Assistance Program have been referred to
                           EERE. In certain cases, programs have taken action as a
                           result of our referrals, including making necessary changes
                           to program activities, enhancing monitoring to address
                           issues identified in the allegations, and reprimanding
                           personnel as necessary;

                           EERE implemented a new web-based information system
                           to support tracking and reporting of performance results
                           related to its weatherization activities. By doing so,
                           program officials believed that they could better ensure that
                           work was adequately completed by recipients; and,

                           In response to our report on weatherization activities in
                           West Virginia, the Department commented that it had
                           assigned its Project Officer to closely monitor progress on
                           development and implementation of policies and
                           procedures consistent with Federal requirements to enhance
                           compliance with eligibility requirements.

                    By leveraging its actions with suggestions related to concerns
                    identified during our reviews, the Department should strengthen its
                    ability to ensure that the public receives the most value possible
                    from its programs and operations.

Potential Impacts   The Department realized significant accomplishments throughout
Going Forward       its implementation of the Recovery Act. Undoubtedly, it will
                    continue to encounter many of the same challenges, as well as
                    additional ones, as it finalizes Recovery Act work and transitions
                    to a post-Recovery Act environment. While many of the
                    challenges faced over nearly three years may have been unique to
                    the Recovery Act, the "lessons learned" during that time can be
                    applied to program operations for many years to come. For
                    instance, the need to continuously monitor the risk environment
                    and consider the impacts of changes will be especially important as
                    officials begin to reduce the scope of their programs in light of
                    anticipated returns to normal appropriation levels. In addition, it
                    will be essential that the Department continue to evaluate staffing


Page 20                                 Identified Lessons Learned/Best Practices
             levels and employee skill sets to ensure they are commensurate
             with the level of work performed by the programs. Furthermore,
             as demonstrated throughout our various reviews, active and
             thorough monitoring of program activities by all responsible
             parties can help mitigate a host of performance challenges,
             including those related to ensuring that adequate services are
             delivered to the public. Implementation of "lessons learned" such
             as these should aid programs in meeting their intended goals and
             objectives and the overall missions of the Department.

MANAGEMENT   Management concurred with the information in the report and
REACTION     stated that it had made significant progress in addressing OIG
             findings and recommendations through implementation and
             completion of corrective actions. Management commented that it
             will continue to implement strong business practices supported by
             comprehensive financial and performance systems to facilitate
             timely, accurate, and complete reporting of both Recovery Act and
             base program activities.

AUDITOR      Management's comments are responsive to our report.
COMMENTS




Page 21                     Management Reaction and Auditor Comments
     Appendix 1

             OFFICE OF INSPECTOR GENERAL REPORTS BY PROGRAM AREA


         REPORT                                 KEY FINDINGS                           LESSONS LEARNED

                                        Department-wide Reports
Review of the Department of    As of July 2010, the Department of Energy
Energy's Plan for Obligating   (Department) had obligated about 90 percent of its      Financial Management
Remaining Recovery Act         American Recovery and Reinvestment Act                  Regulatory Compliance
Contract and Grant Funding     (Recovery Act) funds. However, it still had about
(OAS-RA-10-15, August          $3.4 billion to obligate by the Recovery Act
2010)                          deadline, which was less than three months away.
                               All of the Department's participating program
                               offices had plans or were developing plans to
                               obligate the remaining funding.

Accounting and Reporting       The Department developed and implemented a
for the American Recovery      data quality assurance system; however, site            Accounting and Reporting
and Reinvestment Act by        officials did not always ensure that anomalies,
the Department of Energy's     once identified, were resolved. Additionally, the
Funding Recipients (OAS-       Department did not always utilize the correct basis
RA-10-06, April 2010)          in evaluating the accuracy of data and did not
                               correct duplicate reports by recipients, resulting in
                               overstatements of funds obligated.

Management Challenges at       The Department's management challenges for
the Department of Energy       Fiscal Year 2010 included contract management,          Risk Management
(DOE/IG-0832, December         cyber security, energy supply, environmental            Financial Management
2009)                          cleanup, safeguards and security, and stockpile
                               stewardship.

Selected Department of         A number of common risks identified included
Energy Program Efforts to      mechanical and substantive requirements related         Risk Management
Implement the American         to the award and distribution of funds, program and     Financial Management
Recovery and Reinvestment      project performance monitoring, and program and         Human Capital
Act (OAS-RA-10-03,             project execution activities.                           Management
December 2009)
The Department of Energy's     The Department had developed a strategy to
Quality Assurance Process      address its oversight responsibilities for ensuring     Risk Management
for Prime Recipients'          the accuracy and completeness of data reported by       Accounting and Reporting
Reporting for the American     Recovery Act recipients. However, challenges
Recovery and Reinvestment      remain including changes required to adjust to
Act of 2009 (OAS-RA-10-01,     Office of Management and Budget requirements,
October 2009)                  the process for addressing systemic problems was
                               incomplete, and a lack of a plan for coordinated
                               action when problems were discovered.




     Page 22                                 Office of Inspector General Reports by Program Area
    Appendix 1 (continued)

Department of Energy's       Program officials had not determined whether
Efforts to Meet              existing information systems would be able to             Risk Management
Accountability and           process increased transactions. Modifications to          Accounting and Reporting
Performance Reporting        accommodate Recovery Act performance
Objectives of the American   measures had not been tested and a significant
Recovery and Reinvestment    portion of the performance measures were not
Act (OAS-RA-09-04,           quantifiable. Additionally, there was a lack of
September 2009)              coordination between Headquarters' organizations.

Department of Energy         The Department had not always taken advantage
Efforts to Manage            of opportunities to reduce energy consumption             Risk Management
Information Technology       associated with its information technology
Resources in an Energy-      resources. This occurred because the Department
Efficient and                had not developed and/or implemented policies
Environmentally              and procedures that addressed all relevant
Responsible Manner (OAS-     requirements for ensuring an energy-efficient
RA-09-03, May 2009)          information technology environment.

Special Report - The         A prior audit raised concerns that the number of
Department of Energy's       contract specialists at the Department had not kept       Human Capital
Acquisition Workforce and    pace with the demand for their services. The              Management
its Impact on                Department had increased the number of
Implementation of the        contracting officers and specialists; however, it still
American Recovery and        faced challenges in ensuring that the acquisition
Reinvestment Act of 2009     workforce was fully staffed.
(IG-RA-09-02, March 2009)

The American Recovery and    The Office of Inspector General identified several
Reinvestment Act at the      risks related to implementing the Recovery Act.           Risk Management
Department of Energy (OAS-   These included funding accountability and                 Financial Management
RA-09-01, March 2009)        reporting, awarding and monitoring grants and             Accounting and Reporting
                             cooperative agreements, contract management,              Human Capital
                             and direct loans and loan guarantees.                     Management
                                                                                       Regulatory Compliance
                                                                                       Delivery of Public Services


                  Office of Energy Efficiency and Renewable Energy (EERE)
The Department of Energy's   The Department had not developed and
Geothermal Technologies      implemented procedures for monitoring geothermal          Regulatory Compliance
Program under the            technology projects. Additionally, it had not             Human Capital
American Recovery and        assigned adequate staff to support monitoring             Management
Reinvestment Act (OAS-RA-    activities. Also, five of the six recipients in our
11-05, March 2011)           sample had not included provisions to ensure that
                             subcontractor laborers were paid at the minimum
                             prevailing wage rates as required by the Davis-
                             Bacon Act. This occurred because the Department
                             had not provided sufficient oversight of the awards
                             and had not adequately trained recipients on
                             Federal requirements.




    Page 23                                 Office of Inspector General Reports by Program Area
     Appendix 1 (continued)

Investigative Report -         The State of Georgia's rebate process was
Management Alert on the        consistent with the Department's program                Risk Management
State Energy Efficient         guidance; however, it had vulnerabilities that may      Delivery of Public Services
Appliance Rebate Program       have allowed ineligible recipients to receive funds
(INV-RA-11-01, December        under the Rebate Program. We noted that
2010)                          inadequate verification controls exposed the
                               program to potential abuse on a significant scale.

Review of Allegations          There were a number of circumstances
Regarding Hiring and           surrounding the hiring action that led us to            Regulatory Compliance
Contracting in the Office of   conclude that a contract employee was pre-              Human Capital
Energy Efficiency and          selected. Our inquiry established that the              Management
Renewable Energy (OAS-         contractor employee was actively involved in the
SR-10-04, September 2010)      management of the applicable EERE program by
                               participating in high-level management meetings
                               where policy and strategic decisions were made;
                               assisting in the development and implementation of
                               policy-oriented program goals; participating actively
                               and intimately in the hiring process for new
                               employees; and, developing performance
                               standards for Federal employees.

Management Controls over       The Performance and Accountability for Grants in
the Development and            Energy (PAGE) System was placed into operation          Risk Management
Implementation of the Office   even though cyber security planning and testing         Financial Management
of Energy Efficiency and       was not completed. Basic project management
Renewable Energy's             practices were not followed during planning,
Performance and                development, and implementation of PAGE. In
Accountability for Grants in   particular, cost and schedule baselines were not
Energy System (OAS-RA-10-      created to help manage the project, and officials
14, July 2010)                 had not fully considered alternatives to a custom
                               system development, practices which are designed
                               to increase the efficiency of system development.

Progress in Implementing       The Department had followed its established
the Advanced Batteries and     process for soliciting and reviewing applications for   Risk Management
Hybrid Components              grants. It had also developed a comprehensive           Financial Management
Program under the              monitoring program to oversee funded projects. As
American Recovery and          part of the award process and to protect the
Reinvestment Act (OAS-RA-      Government's interest, the Department established
L-10-04, April 2010)           conditions on all but three of the awards reviewed
                               to address risks identified during the application
                               review process.

The Department of Energy's     The Federal Energy Management Program
Program to Assist Federal      (FEMP) had not always maintained up-to-date             Risk Management
Buyers in the Purchasing of    energy efficiency specifications. For some              Human Capital
Energy Efficient Products      products, FEMP had not updated its specifications       Management
(OAS-RA-10-08, April 2010)     for as long as nine years despite well-known,
                               demonstrated efficiency gains in the intervening
                               period. FEMP also could not demonstrate that it
                               had adequately pursued the development of new
                               energy efficiency specifications and had not
                               effectively managed relevant contractor efforts
                               essential to the program. This occurred because



     Page 24                                 Office of Inspector General Reports by Program Area
    Appendix 1 (continued)

                              insufficient attention had devoted to FEMP
                              operations as a result of severely constrained
                              staffing levels in the past.


                               EERE - Weatherization Assistance Program
Examination Report on         Action for a Better Community, Inc., a New York
Action for a Better           agency, had not performed adequate                      Risk Management
Community, Inc. −             weatherization services on five of the nine single-     Regulatory Compliance
Weatherization Assistance     family homes selected for review. Management            Delivery of Public Services
Program Funds Provided by     oversight for the activities of the employees
the American Recovery and     responsible for accepting Weatherization
Reinvestment Act of 2009      Assistance Program participants' applications was
(OAS-RA-11-21, September      not adequate. Thus ineligible participants may
2011)                         have been approved to receive weatherization
                              services to which they were not entitled.

Examination Report on         People's Equal Action and Community Effort, Inc.
People's Equal Action and     (PEACE) did not develop and maintain a list of          Regulatory Compliance
Community Effort, Inc. −      previously weatherized multi-family projects for        Delivery of Public Services
Weatherization Assistance     determining eligibility for weatherization.
Program Funds Provided by     Additionally, PEACE did not use databases
the American Recovery and     provided by the State of New York for that purpose.
Reinvestment Act of 2009      This occurred because PEACE did not have
(OAS-RA-11-20, September      procedures in place to ensure employees used the
2011)                         databases.

Examination Report on         The sub-recipient had inadequate processes over
Cuyahoga County of Ohio       eligibility, financial management (interest on          Risk Management
Department of Development     advances not remitted), the quality of                  Financial Management
− Weatherization Assistance   workmanship, and compliance with the Davis-             Regulatory Compliance
Program Funds Provided by     Bacon Act. These weaknesses occurred because            Delivery of Public Services
the American Recovery and     of a lack of policies and procedures and insufficient
Reinvestment Act of 2009      guidance from the Department.
(OAS-RA-11-19, September
2011)

Examination Report on         The Community Action Partnership of the Greater
Community Action              Dayton Area lacked evidence that a competitive          Risk Management
Partnership of the Greater    bidding process or cost/price analyses were             Accounting and Reporting
Dayton Area −                 performed. Further, the Community Action Agency         Regulatory Compliance
Weatherization Assistance     had issues related to poor quality of workmanship       Delivery of Public Services
Program Funds Provided by     and did not have a system in place to track
the American Recovery and     contractor performance. This occurred because of
Reinvestment Act of           insufficient policies and procedures to guide the
2009 (OAS-RA-11-18,           process.
September 2011)




    Page 25                                 Office of Inspector General Reports by Program Area
     Appendix 1 (continued)

The Department of Energy's     Local agency contractors installed weatherization
Weatherization Assistance      measures that may not have been cost-effective.        Risk Management
Program under the              Change orders to competitively awarded                 Regulatory Compliance
American Recovery and          weatherization work contracts had not been             Delivery of Public Services
Reinvestment Act in the        approved, as required, prior to completion of the
State of Tennessee (OAS-       work, and local agencies had not ensured that the
RA-11-17, September 2011)      changes were cost-effective. Several homes at
                               one agency had previously received weatherization
                               services making these homes ineligible for
                               additional services. We also observed recurring
                               problems with the quality of weatherization work
                               across the entire State.

The Department of Energy's     The Crater District Area Agency on Aging (Crater)
Weatherization Assistance      and the Community Housing Partners Agency had          Financial Management
Program Funded under the       not always maintained support for costs submitted      Regulatory Compliance
American Recovery and          for reimbursement and did not always perform           Delivery of Public Services
Reinvestment Act for the       inspections of completed units. Additionally, Crater
Commonwealth of Virginia       provided weatherization services to a number of
(OAS-RA-11-14, August          ineligible applicants and/or dwellings and did not
2011)                          always ensure employees were paid Davis-Bacon
                               Act wage rates.

The Department of Energy's     Indiana Builders Association (IBA) was unable to
Weatherization Assistance      ensure that dwellings were not disqualified from       Regulatory Compliance
Program Funded under the       receiving Recovery Act funded services because         Delivery of Public Services
American Recovery and          they had received weatherization services in the
Reinvestment Act in the        past. IBA had not maintained documentation to
State of Indiana (OAS-RA-      support weatherization material costs reimbursed
11-13, August 2011)            by Indiana even though it was specifically required
                               to do so.

The Department of Energy's     Missouri had not always ensured that local
Weatherization Assistance      agencies weatherization activities were performed      Risk Management
Program under the              appropriately, including final inspections, and that   Human Capital
American Recovery and          systemic problems related to quality of work had       Management
Reinvestment Act in the        been adequately addressed. A contributing factor       Delivery of Public Services
State of Missouri (OAS-RA-     to these issues was the lack of uniformly trained
11-12, August 2011)            contractors, assessors, and inspectors.

The Department of Energy's     The West Virginia government had not developed
Weatherization Assistance      a State-wide plan to address systemic deficiencies     Risk Management
Program under the              related to poor quality workmanship. The State         Financial Management
American Recovery and          and local agencies had not avoided potential           Regulatory Compliance
Reinvestment Act in the        conflicts of interest by allowing local agency         Delivery of Public Services
State of West Virginia (OAS-   employees and relatives to receive priority over the
RA-11-09, June 2011)           handicapped and elderly. A lack of effective
                               financial and operational controls contributed to
                               these issues.

The Department of Energy's     Wisconsin had not required its weatherization
Weatherization Assistance      program intake agencies to retain source               Regulatory Compliance
Program Funded under the       documentation that would enable verification of        Delivery of Public Services
American Recovery and          applicant eligibility for weatherization program
Reinvestment Act for the       services. This occurred because Wisconsin was



     Page 26                                 Office of Inspector General Reports by Program Area
    Appendix 1 (continued)

State of Wisconsin (OAS-     relying on outdated Department guidance.
RA-11-07, May 2011)



The Department of Energy's   Florida's guidelines for verifying that homes had
Weatherization Assistance    not been weatherized after September 30, 1994,           Regulatory Compliance
Program under the            were not consistent with Department regulations.         Delivery of Public Services
American Recovery and        The State database was not organized by home
Reinvestment Act for the     address, but rather recipient social security
Capital Area Community       number. This occurred because the State's
Action Agency - Agreed       guidelines were not in compliance with Federal
Upon Procedures (OAS-RA-     requirements.
11-04, February 2011)

The Department of Energy's   The City of Phoenix had not procured contractor
Weatherization Assistance    weatherization services through a competitive            Financial Management
Program under the            process as required by Federal regulations, and          Regulatory Compliance
American Recovery and        had not performed cost analyses in the selection of
Reinvestment Act for the     contractors to ensure price competitiveness.
City of Phoenix - Agreed     Additionally, Phoenix had not obtained supporting
Upon Procedures (OAS-RA-     documentation for all of the contractor's invoices.
11-03, November 2010)        This occurred because Phoenix did not have
                             policies and procedures for ensuring cost
                             reasonableness and supportability.

Selected Aspects of the      Pennsylvania had not always ensured that high
Commonwealth of              energy users were given priority over lower energy       Financial Management
Pennsylvania's Efforts to    users as called for in its Recovery Act State Plan       Regulatory Compliance
Implement the American       approved by the Department. Also, Pennsylvania           Delivery of Public Services
Recovery and Reinvestment    had not reviewed, as required, financial activity at
Act Weatherization           the local agency level. These issues were due to a
Assistance Program (OAS-     lack of monitoring of the local agencies.
RA-11-02, November 2010)

The State of Illinois        Illinois had substandard performance in
Weatherization Assistance    weatherization workmanship, initial home                 Financial Management
Program (OAS-RA-11-01,       assessments, and contractor billing. Additionally,       Delivery of Public Services
October 2010)                the Community Action Agency had not always
                             ensured that contractors' costs were reasonable.
                             These issues were attributed to internal control
                             weaknesses.

The Department of Energy's   The Department had significant inaccuracies in the
Use of the Weatherization    allocation of funds to the U.S. Territories, resulting   Financial Management
Assistance Program           in the Territories receiving $17 million less, in
Formula for Allocating       aggregate, than they would have received had a
Funds under the American     consistent allocation formula been used.
Recovery and Reinvestment
Act (OAS-RA-10-13, June
2010)




    Page 27                                 Office of Inspector General Reports by Program Area
     Appendix 1 (continued)

Management Controls over        Virginia had not performed on-site financial
the Commonwealth of             monitoring of its 22 sub-grantees in the prior 18         Financial Management
Virginia's Efforts to           months. The Department did not detect this                Regulatory Compliance
Implement the American          weakness because the most recent program
Recovery and Reinvestment       monitoring did not include a financial review.
Act Weatherization
Assistance Program (OAS-
RA-10-11, May 2010)

Management Controls over        The WinSAGA system had security concerns that
the Department's WinSAGA        could increase the risk of compromise of grant            Risk Management
System for Energy Grants        data, including inappropriate controls over system        Accounting and Reporting
Management Under the            access, appropriate system backup and recovery
Recovery Act (OAS-RA-10-        procedures hadn't been implemented, and security
05, March 2010)                 planning documentation and control testing were
                                incomplete.

Progress in Implementing        Weatherization grantees had made little progress
the Department of Energy's      in weatherizing homes after one year. Program             Human Capital
Weatherization Assistance       challenges, including Davis-Bacon Act compliance,         Management
Program Under the               state hiring freezes and furloughs, local budget          Regulatory Compliance
American Recovery and           shortfalls, and training delays placed the                Delivery of Public Services
Reinvestment Act (OAS-RA-       Weatherization Assistance Program on hold for up
10-04, February 2010)           to nine months.

Management Alert on the         Illinois had not inspected any of the weatherized
Department's Monitoring of      units completed with Department funds at 7 of 35          Risk Management
the Weatherization              local agencies as required. Illinois did not have a       Regulatory Compliance
Assistance Program in the       system in place for aggregating and tracking major        Delivery of Public Services
State of Illinois (OAS-RA-10-   findings identified during on-site monitoring visits to
02, December 2009)              local agencies. In addition, a local agency
                                weatherization inspector failed to perform a
                                required test and did not detect a furnace gas leak.
                                The inspector also did not identify problems with
                                the installation of the intake and exhaust pipes of
                                the same furnace. These problems occurred
                                because of insufficient Federal monitoring.


               EERE - Energy Efficiency and Conservation Block Grant Program
The State of Nevada's           The State of Nevada had monitoring and oversight
Implementation of the           issues that increased the risk that Recovery Act          Risk Management
Energy Efficiency and           goals may not be met. Nevada had not ensured              Financial Management
Conservation Block Grant        that sub-recipient projects were on track to meet         Regulatory Compliance
Program (OAS-RA-12-02,          obligation and spending deadlines and compliance
November 2011)                  with the Davis-Bacon Act and Buy American
                                provisions. These issues occurred because
                                Nevada had not taken a comprehensive approach
                                to grant management.




     Page 28                                   Office of Inspector General Reports by Program Area
    Appendix 1 (continued)

Management Alert on The       As much as $879 million (33 percent) of the $2.7
Status of Energy Efficiency   billion allocated for formula-based Energy              Risk Management
and Conservation Block        Efficiency and Conservation Block Grants                Financial Management
Grant Recipients'             (EECBG) had not been obligated by the recipients.       Accounting and Reporting
Obligations (OAS-RA-11-16,    Testing also revealed a number of apparent
September 2011)               inaccuracies in data that the Department used to
                              monitor grantee obligations and spending.

The Department of Energy's    Pennsylvania had developed and implemented a
Energy Efficiency and         monitoring system designed to provide reasonable        Risk Management
Conservation Block Grant      assurance that EECBG projects would improve             Financial Management
Program Funded under the      energy efficiency and be completed in a timely
American Recovery and         manner and funding would be accounted for and
Reinvestment Act for the      spent properly. Controls appeared to be generally
State of Pennsylvania (OAS-   effective, and no material issues with monitoring
RA-L-11-11, September         and execution were identified.
2011)

The Department of Energy's    Actual EECBG Program spending had not kept
Implementation of the         pace with anticipated expenditures. More than a         Financial Management
Energy Efficiency and         year after the Recovery Act was passed, grant           Accounting and Reporting
Conservation Block Grant      recipients had expended only 8.4 percent of the         Human Capital
Program under the             $3.2 billion authorized for the Program. Rapid          Management
American Recovery and         spending of Program funds was hampered by               Delivery of Public Services
Reinvestment Act: A Status    numerous administrative and regulatory
Report (OAS-RA-10-16,         challenges, such as a lack of adequate staffing and
August 2010)                  Davis-Bacon Act requirements.


                                    EERE - State Energy Program
The Department of Energy's    California's plans to retrofit State buildings were
American Recovery and         delayed because of the time required to meet            Risk Management
Reinvestment Act -            Recovery Act requirements. Roles and                    Regulatory Compliance
California State Energy       responsibilities for resolving identified issues were   Delivery of Public Services
Program (OAS-RA-11-10,        not clearly defined, and EERE had not effectively
July 2011)                    monitored the California program.

The Department of Energy's    New Jersey experienced delays in expending the
American Recovery and         funding because of difficulty in complying with         Financial Management
Reinvestment Act - New        regulatory requirements and procedural issues.          Regulatory Compliance
Jersey State Energy           This occurred, in part, because of the time it took     Delivery of Public Services
Program (OAS-RA-L-11-07,      the Department to provide, and New Jersey to
April 2011)                   incorporate, guidance for meeting Recovery Act
                              requirements.

The Department of Energy's    Massachusetts had not completed plans for site
American Recovery and         visits of the direct sub-recipients and had not         Risk Management
Reinvestment Act -            finalized the methodology for selection of second-
Massachusetts State Energy    level sub-recipients for site visits. This occurred
Program (OAS-RA-11-06,        because the Department did not provide timely
March 2011)                   guidance pertaining to sub-recipient monitoring.




    Page 29                                  Office of Inspector General Reports by Program Area
    Appendix 1 (continued)

Management Controls over      Michigan had not performed a risk assessment to
the Department of Energy's    identify high-risk projects and sub-recipients. In      Risk Management
American Recovery and         addition, Michigan did not have a process in place      Accounting and Reporting
Reinvestment Act -            to verify that invoices addressed Recovery Act          Regulatory Compliance
Michigan State Energy         requirements. These issues were attributed to
Program (OAS-RA-10-18,        insufficient Department monitoring.
September 2010)

Status Report: The            Compliance with various regulatory requirements
Department of Energy's        had slowed State Energy Program spending.               Risk Management
State Energy Program          Additionally, efforts to measure estimated energy       Financial Management
Formula Grants Awarded        savings were not completely reliable. Finally, we       Regulatory Compliance
under the American            noted that while EERE had taken action to address
Recovery and Reinvestment     monitoring issues, several monitoring plans
Act (OAS-RA-10-17,            remained incomplete at the state level.
September 2010)

The Department of Energy's    Georgia submitted timely reports and implemented
American Recovery Act -       technical and financial monitoring plans to support     Risk Management
Georgia State Energy          its State Energy Program.                               Financial Management
Program (OAS-RA-L-10-06,
September 2010)

The Department of Energy's    Florida used funding for purposes that did not meet
American Recovery and         the intent of the Recovery Act. In addition, Florida    Risk Management
Reinvestment Act - Florida    did not ensure that all of the award requirements       Financial Management
State Energy Program          were passed to sub-recipients. The State also did       Regulatory Compliance
(OAS-RA-10-12, June 2010)     not have contingency plans for projects that were
                              delayed. These issues occurred, in part, because
                              of insufficient Department monitoring.

Management Controls over      Louisiana had not instituted controls to prevent
the Department of Energy's    double payments and had not developed                   Risk Management
American Recovery and         contingency plans to replace projects that didn't       Regulatory Compliance
Reinvestment Act -            receive timely approval.
Louisiana State Energy
Program (OAS-RA-10-09,
May 2010)


                               Office of Environmental Management
Waste Disposal and            The Transuranic Waste Processing Center
Recovery Act Efforts at the   (TWPC), although initially categorized as a “shovel     Risk Management
Oak Ridge Reservation (INS-   ready” project, encountered significant obstacles in    Regulatory Compliance
RA-L-12-01, December 2011)    processing and disposing of the transuranic waste.
                              Since the TWPC project was behind schedule, the
                              Department implemented a number of changes to
                              ensure new, more realistic waste processing goals
                              were developed and achieved. While some
                              progress had been made, the revision in strategy
                              will likely result in a reduced amount of waste being
                              processed.

Implementation of the         Select Recovery Act costs were not always
Recovery Act at the           properly distributed to correct project activity        Financial Management



    Page 30                                  Office of Inspector General Reports by Program Area
     Appendix 1 (continued)

Savannah River Site (OAS-      codes. The Savannah River Site was compliant         Accounting and Reporting
RA-L-11-12, September          with the Recovery Act requirements including         Regulatory Compliance
2011)                          segregation of funds, flow-down of subcontracting
                               requirements, and jobs reporting.

Los Alamos National            The Los Alamos National Laboratory (LANL) had
Laboratory Environmental       ineffective controls over project scope              Risk Management
Management Activities          management. For instance, management reserve         Financial Management
Funded by the Recovery Act     was not established commensurate with the level      Accounting and Reporting
(OAS-RA-11-15, August          of uncertainty related to the type and amount of     Regulatory Compliance
2011)                          waste to be remediated. In addition, the baseline
                               change control process was not fully implemented.
                               We noted that LANL was in compliance with the
                               Recovery Act requirements related to segregation
                               of funds, flow-down of subcontracting
                               requirements, and jobs reporting.

Department of Energy's         We did not identify any material issues with
Controls over Recovery Act     compliance with Recovery Act requirements at the     Risk Management
Spending at the Idaho          Idaho National Laboratory. However, weaknesses       Accounting and Reporting
National Laboratory (OAS-      existed in contract management and performance
RA-L-11-10, July 2011)         measurement for incentive fee determination.

Performance of Recovery        The Carlsbad Field Office had met its goals for
Act Funds at the Waste         certain Recovery Act provisions, such as jobs        Risk Management
Isolation Pilot Plant (OAS-    created; however, it had not consistently met its    Accounting and Reporting
RA-L-11-09, July 2011)         waste shipment performance goals. Additionally,
                               its Earned Value Management System data did not
                               accurately report performance based on work
                               performed.

Use of American Recovery       The Hanford Solid Waste Project was behind
and Reinvestment Act of        schedule and at risk of not meeting accelerated      Risk Management
2009 Funds on Solid Waste      waste disposal goals. To address schedule
Project Activities at the      slippage, the Richland Operations Office
Department of Energy's         implemented procedures to bring its Solid Waste
Hanford Site (OAS-RA-L-11-     Project back on schedule. For instance,
08, May 2011)                  procedures were adjusted to ensure that
                               transuranic waste retrieval occurred as needed.

Management of the Tank         The Department was on schedule to complete
Farm Recovery Act              Recovery Act upgrades as planned and for less        Risk Management
Infrastructure Upgrades        than estimated costs. However, due to a lack of      Regulatory Compliance
Project (OAS-RA-L-11-03,       contract proposal detail, we were unable to verify
February 2011)                 whether all Recovery Act funded work represented
                               an acceleration of work scope.

Audit of Environmental         We identified instances at the Y-12 National
Cleanup Projects Funded by     Security Complex where certain required Recovery     Financial Management
the Recovery Act at the Y-12   Act contract terms were not included in              Accounting and Reporting
National Security Complex      subcontracts. However, the site was in compliance    Regulatory Compliance
(OAS-RA-L-11-02, December      with the Recovery Act requirements related to
2010)                          segregation of funds, flow-down of subcontracting
                               requirements, and jobs reporting.




     Page 31                                 Office of Inspector General Reports by Program Area
     Appendix 1 (continued)

Management of the             While the Plutonium Finishing Plant Closure
Plutonium Finishing Plant     Project met several of the Recovery Act goals, we          Risk Management
Closure Project (OAS-RA-L-    identified some risks related to maintaining the
11-01, November 2010)         project on schedule and within budgets. For
                              instance, schedule delays in decontaminating
                              gloveboxes may impact project closure.

Decommissioning and           Sites were in compliance with the Recovery Act
Demolition Activities at      requirements related to segregation of funds, flow-        Risk Management
Office of Science Sites       down of subcontracting requirements, and jobs              Financial Management
(OAS-RA-L-10-05, August       reporting. However, we noted some concerns with            Accounting and Reporting
2010)                         the Brookhaven Graphite Research Reactor's                 Regulatory Compliance
                              increased costs and missed milestones, but we
                              determined the Department had already taken
                              action to mitigate the concerns.

Waste Processing and          The Department's decision to use Recovery Act
Recovery Act Acceleration     funds to process transuranic waste on site rather          Risk Management
Efforts for Contact-Handled   than at the Advanced Mixed Waste Treatment                 Financial Management
Transuranic Waste at the      Project will increase costs by approximately               Human Capital
Hanford Site (OAS-RA-10-      $25 million. This issue occurred, at least in part,        Management
10, May 2010)                 because of the Department's concerns about
                              maintaining a stable Hanford workforce.

Moab Mill Tailings Cleanup    We found that guidance for development of project
Project (OAS-RA-L-10-03,      baselines was not followed for the Moab Mill               Risk Management
April 2010)                   Tailings Cleanup Project. In addition, cost                Accounting and Reporting
                              estimates were not clearly associated with
                              elements of work that was to be performed.

Management Alert on           The Department proposed shipping depleted
Environmental                 uranium oxide (DUO) from the Savannah River                Risk Management
Management's Select           Site to an interim storage site. A source expressed
Strategy for Disposition of   concern that this was inefficient and unnecessary.
Savannah River Site           Subsequent to the report, the Department identified
Depleted Uranium Oxides       the Nevada National Security Site as the
(OAS-RA-10-07, April 2010)    permanent disposal site and completed shipment
                              of DUO for disposal.

Special Inquiry Report -      While allegations related to potential violations of
Review of Allegations         political activity restrictions, lack of impartiality in   Risk Management
Involving Potential           performing official duties, misuses of position and        Human Capital
Misconduct by a Senior        other related misconduct were largely                      Management
Office of Environmental       unsubstantiated, they led to a fact finding inquiry        Delivery of Public Services
Management Official           that identified an operating atmosphere
(S09IS024, December 2009)     inconsistent with maintaining credibility and public
                              confidence.


                                              Office of Science
The 12 GeV CEBAF Upgrade      The Continuous Electron Beam Accelerator Facility
Project at Thomas Jefferson   Upgrade Project generally complied with the                Risk Management
National Accelerator          Recovery Act requirements. However, we
Facility(OAS-RA-L-11-13,      identified several opportunities to strengthen
September 2011)               project monitoring and control.



     Page 32                                 Office of Inspector General Reports by Program Area
    Appendix 1 (continued)


Department's Management        The Department should consider some
of Cloud Computing             opportunities for improvement before adopting         Risk Management
Services (OAS-RA-L-11-06,      cloud computing on a large scale. The Department      Accounting and Reporting
April 2011)                    had not yet prepared policies and procedures
                               governing security, and other risks and problems
                               existed with resource disposition plans and
                               Recovery Act reporting for the Magellan Project.

Recovery Act Funded            While generally complying with Recovery Act
Projects at the SLAC           requirements, the SLAC National Accelerator           Financial Management
National Accelerator           Laboratory did not always comply with internal        Accounting and Reporting
Laboratory (OAS-RA-L-11-       requirements to ensure subcontractor submissions
05, March 2011)                were reviewed and classified. In particular,
                               subcontractor invoices did not clearly identify
                               Recovery Act work and were not properly approved
                               prior to payment.

The Department's               The Department generally complied with Recovery
Infrastructure Modernization   Act requirements; however, it planned                 Risk Management
Projects under the Recovery    infrastructure improvements for which there was no
and Reinvestment Act of        immediate need at the Lawrence Berkeley National
2009 (OAS-RA-L-11-04,          Laboratory. This occurred because the Laboratory
March 2011)                    had not adequately ensured that Recovery Act
                               spending yielded the optimum benefit to the
                               Department.

Office of Science's Energy     The Office of Science generally complied with
Frontier Research Centers      Recovery Act requirements. However, we noted          Risk Management
(OAS-RA-L-10-09, August        that the Energy Frontier Research Centers (EFRC)
2010)                          were newly established and displayed
                               characteristics that increased complexity and risk.
                               Science will need to provide continued oversight
                               and monitoring of the EFRCs throughout their five-
                               year life.

Audit of Fermi National        Although generally in compliance with the
Accelerator Laboratory's       Recovery Act, at the time of our field work, the      Risk Management
NOvA Project (OAS-RA-L-        Chicago Office had not implemented additional         Accounting and Reporting
10-02, April 2010)             oversight controls specific to the University of      Regulatory Compliance
                               Minnesota's use of Recovery Act funds. Also, the
                               Chicago Office had not, in a timely manner,
                               incorporated revisions to the Special Terms and
                               Conditions written to capture Recovery Act
                               requirements into the cooperative agreement.
                               Finally, the University of Minnesota had not used
                               the correct methodology to determine the number
                               of jobs created under the Recovery Act.




    Page 33                                  Office of Inspector General Reports by Program Area
     Appendix 1 (continued)

The Department of Energy's      The NSLS-II Project generally complied with
Management of the NSLS-II       Recovery Act requirements, except that                 Financial Management
Project (OAS-RA-L-10-01,        Brookhaven National Laboratory did not always          Accounting and Reporting
April 2010)                     segregate Recovery Act and non-Recovery Act
                                costs. The costs were correctly charged when they
                                were ultimately paid; however, errors resulting from
                                the improper accrual were not corrected and
                                resulted in inaccurate information being reported to
                                www.FederalReporting.gov.


                           Advanced Research Projects Agency - Energy
The Advanced Research           The Advanced Research Projects Agency-Energy
Projects Agency - Energy        (ARPA-E) had not established a systematic              Risk Management
(OAS-RA-11-11, August           approach to ensure that it was meeting the             Financial Management
2011)                           technology transfer and outreach requirement of        Delivery of Public Services
                                the America COMPETES Act; and had not drafted
                                or, in some cases, approved draft policies and
                                procedures in a number of key areas. Transaction
                                testing identified and questioned approximately
                                $280,387 in unsupported, unreasonable, or
                                unallocable costs, or costs considered to be
                                specifically unallowable, that had been incurred by
                                two recipients.


                                         Loan Guarantee Program
The Department of Energy's      The Loan Guarantee Program could not always
Loan Guarantee Program          readily demonstrate, through systematic records,       Risk Management
for Clean Energy                how it resolved or mitigated relevant risks prior to   Accounting and Reporting
Technologies (DOE/IG-0849,      granting loan guarantees.
March 2011)


                                  Office of the Chief Financial Officer
Special Inquiry on the Office   In response to a complaint received through the
of the Chief Financial          OIG Hotline, we conducted a targeted review of the     Risk Management
Officer's Information           Office of the Chief Financial Officer's application    Financial Management
Technology Expenditures         acquisition and implementation efforts as they
(OAS-RA-L-12-01, November       related to the software systems identified in the
2011)                           complaint. Although the complaint was not
                                substantiated, we noted that the software in
                                question was costly and, that in some cases, it was
                                not as useful or productive as expected.


                                           Office of Fossil Energy
Management Alert on             The plan to acquire and install a Performance
Planned Actions Related to      Optimized Data Center may not be the least costly      Risk Management
the National Energy             available option. In addition, over 3,000 square       Financial Management
Technology Laboratory's         feet of the usable space in the existing data center   Regulatory Requirements
Simulation-Based                was not utilized nor were there firm plans for this
Engineering User Center         space in the future. The use of Recovery Act funds
(OAS-RA-11-08, April 2011)      for what may be an unnecessary data center raises
                                concerns about the effective use of these



     Page 34                                   Office of Inspector General Reports by Program Area
    Appendix 1 (continued)

                            resources.


                                 Western Area Power Administration
Management Alert on The     Despite internal control and administration issues
Western Area Power          with its first project authorized under its $3.25       Risk Management
Administration's Control    billion Recovery Act borrowing authority, the           Financial Management
and Administration of       Western Area Power Administration (Western) was
American Recovery and       preparing to move forward with other transmission
Reinvestment Act            infrastructure projects. In particular, Western had
Borrowing Authority (OAS-   not completed a formal root-cause analysis and
RA-12-01, November 2011     corrective action plan designed to ensure more
                            effective program safeguards were in place going
                            forward. In light of additional prospective
                            commitments, we determined that Western should
                            formally evaluate all the difficulties it experienced
                            with its first Recovery Act-funded transmission
                            infrastructure project before exercising additional
                            borrowing authority.




    Page 35                               Office of Inspector General Reports by Program Area
Appendix 2

             MANAGEMENT COMMENTS




Page 36                            Management Comments
                                                                 IG Report No. OAS-RA-12-03

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:
                             Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                    http://energy.gov/ig

  Your comments would be appreciated and can be provided on the Customer Response Form.
